<html>
<title> - OVERSIGHT OF CONTRACTOR PERFORMANCE INFORMATION</title>
<body><pre>[Senate Hearing 113-382]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-382
 
            OVERSIGHT OF CONTRACTOR PERFORMANCE INFORMATION 

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON FINANCIAL AND
                         CONTRACTING OVERSIGHT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2014

                               __________

         Available via the World Wide Web: http://www.fdsys.gov
       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

88-279 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEIKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               John P. Kilvington, Deputy Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Lauren Corcoran, Hearing Clerk


          SUBCOMMITTEE ON FINANCIAL AND CONTRACTING OVERSIGHT

                       CLAIRE McCASKILL, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          MICHAEL B. ENZI, Wyoming
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
TAMMY BALDWIN, Wisconsin

                 Margaret Daum, Majority Staff Director
                 Rachel Weaver, Minority Staff Director
                       Kelsey Stroud, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator McCaskill............................................     1
    Senator Johnson..............................................     3

                               WITNESSES
                         Tuesday, March 6, 2014

Captain Brian T. Drapp, Supply Corps, United States Navy, 
  Commanding Officer, Naval Sea Logistics Center.................     4
Kevin Youel Page, Assistant Commissioner, Integrated Award 
  Environment, United States General Services Administration.....     6

                     Alphabetical List of Witnesses

Drapp, Captain Brian T.:
    Testimony....................................................     4
    Prepared statement...........................................    23
Youel Page, Kevin:
    Testimony....................................................     6
    Prepared statement...........................................    29

                                APPENDIX

Responses to post-hearing questions for the Record:
    Mr. Drapp....................................................    39
    Mr. Youel Page...............................................    42
Lockheed Martin Assessment Report................................    50


            OVERSIGHT OF CONTRACTOR PERFORMANCE INFORMATION

                              ----------                              


                         TUESDAY, MARCH 6, 2014

                                 U.S. Senate,      
        Subcommittee on Financial and Contracting Oversight
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:37 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Claire 
McCaskill, Chairman of the Subcommittee, presiding.
    Present: Senators McCaskill and Johnson.

             OPENING STATEMENT OF SENATOR MCCASKILL

    Senator McCaskill. In 2009, I held a hearing in this 
Subcommittee on the management of government's dizzying array 
of databases for government contracting. At that hearing, I 
heard from witnesses representing the government, the 
contracting community, and transparency advocates that the 
government's contracting databases were cumbersome, difficult 
to use, and that the data was incomplete. The witnesses pointed 
to the past performance database, the database that tracks 
information about contractor performance on previous Federal 
contracts, as being particularly problematic.
    More than 4 years later, I am here to ask many of the very 
same questions again. Today, however, I am going to focus 
specifically on the databases that contain information about 
contractor performance and integrity. Before the government 
awards a contract, the contracting officer is required to 
review the contractor's past performance on other contracts. 
This review is meant to ensure that the government only awards 
new contracts to companies that are able to perform the work. 
The contracting officer must also ensure that the contractor 
has a satisfactory performance record and a record of integrity 
and business ethics.
    To ensure that these determinations are meaningful, the 
contracting officer needs to be able to access and review 
adequate information about the contractor's performance and 
integrity. Unfortunately, the system we have today is not 
capable of doing that. Information about past performance and 
integrity is scanty, and what there is can be scattered across 
multiple databases. Reports can be difficult to find or just 
plain wrong.
    The government has three main databases that contain 
information about past performance and integrity: Past 
Performance Information Retrieval System (PPIRS), which 
contains past performance evaluations; Federal Awarding 
Performance and Integrity Information System (FAPIIS), which 
contains adverse actions; and the System for Award Management 
(SAM), which contains suspension and debarment information, 
among other things. Then there is a fourth database called 
Contractor Peformance Assessment Reporting System (CPARS), 
which is where contracting officers enter in the past 
performance evaluations that are displayed in PPIRS, because 
neither system can be used to both collect and search this 
information.
    In 2014, when most Americans are used to navigating systems 
designed to be quick and easy to use, PPIRS and FAPIIS, which 
was built as a module within PPIRS, both look and feel 
shockingly old and clunky. For example, I learned that the back 
link in FAPIIS only seems to work if the user is in Internet 
Explorer. Someone using Chrome is just out of luck.
    During today's hearing, I plan to demonstrate just how 
difficult they can be to use. I also have questions about the 
current policies we have regarding what information is 
collected, the way the information is collected, and the way 
the information is organized. To start, FAPIIS has very little 
information, and most of the information in there is self-
reported by contractors with no quality assurance by the 
government.
    Not surprisingly, there is a great deal of variation in 
what contractors interpret as to what is their duty to report. 
In addition, these systems are built around the Data Universal 
Numbering System (DUNS Number), a numerical tracking system 
which the government has bought the rights to use at 
substantial cost from Dun & Bradstreet. DUNS Numbers, however 
are not unique identifiers. A large contractor can have dozens 
or more different DUNS Numbers for each subsidiary.
    Lockheed Martin, for example, has more than 80 entries. 
When contracting officers look up the DUNS Number for the 
contractor in the system, they only see the past performance 
for that specific DUNS Number. They do not see anything about 
the contractor's parent company, if they have one, or 
subsidiaries. They also cannot track a company if it merges or 
is acquired or simply changes its name.
    The system also does not contain information about 
performance on State or local contracts. Since many contractors 
who perform work for the Federal Government also perform 
similar work for States or municipalities, this kind of work 
can be highly relevant. It also appears that the performance 
reports in the system may not fully or accurately reflect a 
contractor's performance. Take for example a company called CGI 
Federal, the contractor primarily responsible for 
Healthcare.gov. The most recent past performance record for CGI 
Federal's work on Healthcare.gov is an assessment dated June 
12, 2013, assessing their performance from June 7, 2012 to June 
6, 2013, on which they were ranked exceptional for their 
performance in every category. As we know, it turned out not to 
be true.
    Another example is British Petroleum (BP). You may recall 
that after the Deepwater Horizon disaster, the Environmental 
Protection Agency (EPA) suspended BP and its related 
subsidiaries from obtaining new Federal contracts. Despite the 
catastrophic disaster which caused billions of dollars in 
damage and subsequent suspension, there does not appear to be 
any record of poor past performance in PPIRS for any of the BP 
entities suspended.
    These issues raise serious technical and procurement policy 
questions, and because the relevant policies in this area are 
set by the Office of Management and Budget (OMB), I invited 
OMB's deputy director for management, or her designee, to 
provide testimony at this hearing. I sent the invitation in 
early February. After I learned that no one at OMB could 
provide testimony during the week that hearing was originally 
planned, I moved the hearing, and the Subcommittee again asked 
if OMB could provide a witness. Again, OMB refused.
    I am disappointed by OMB's apparent lack of interest in 
improving government contracting and its willful disregard of 
legitimate congressional oversight. On the other hand, I am 
very pleased to welcome Captain Brian Drapp from the U.S. Navy, 
and Kevin Youel Page from the General Services Administration 
(GSA). I thank both witnesses for being here today. I would 
also thank you both for your flexibility with starting a little 
earlier than we originally planned because of my need to go to 
the floor for votes and debate on an important matter dealing 
with the military in fact.
    So I am pleased you could come early. And now I will turn 
it over to Senator Johnson for his statement.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Madam Chairman. I would also 
like to welcome the witnesses and thank them for their 
flexibility. I also share your frustration that OMB is not 
showing up to give us their insight and their testimony. 
Obviously, performance tracking in procurement makes all the 
sense in the world. But it is also a very difficult task. I 
know in private business we do it all the time, and we are 
talking about companies with millions of dollars worth of sales 
and millions of dollars worth of contracts, and now we are 
talking about a performance tracking system in a Federal 
Government entity that spends $3.5 trillion. So this is an 
enormously difficult task.
    From my standpoint, the most important thing is to get the 
current system operating as effectively and efficiently as 
possible and as accurately as possible. Unless the information 
is accurate, unless it is transparent, you will not be fair to 
the supplier base and it will not be usable to the government. 
It is just simply not going to work.
    I appreciate the testimony. My suggestion is before we try 
and add any more requirements--which is generally government's 
tendency if something is not working, let's add more layers of 
additional information that we are going to request--I would 
really suggest we concentrate on getting the systems that are 
up in place right now operating correctly, providing accurate 
information, transparent information, before we start biting 
off even more than we can chew.
    So again, I think this is a very good hearing. Appreciate 
your dedication to getting to the bottom of this. Just 
understand, it is a pretty enormous task for working with small 
businesses. It is even a more enormous task for a large Federal 
Government trying to get their arms around these types of 
procurement tracking information systems.
    Thank you.
    Senator McCaskill. Thank you. Let me introduce the 
witnesses. Captain Brian Drapp is the commanding officer of the 
United States Navy Supply Corp, Naval Sea Logistics Center. He 
received his Navy commission from Officer Candidate School in 
1987, following graduation from the University of South 
Florida. He is also a designated Joint Service Officer.
    And Kevin Youel Page is an assistant commissioner of the 
General Service Administration, Integrated Award Environment 
(IAE). In this role, he leads the ongoing maintenance, 
operation, development, and governance of mandatory Federal 
wide shared services in the IAE. Mr. Youel Page previously 
served at the Department of the Treasury as deputy director of 
Office of Procurement Executive.
    I would like you both to know how much I appreciate you for 
being here and your service and for appearing today, especially 
with your flexibility. It is the custom of this Subcommittee to 
swear in all witnesses, so if you would not mind standing and 
taking the following oath.
    Do you swear that the testimony that you will give before 
this Subcommittee will be the truth and the whole truth so help 
you, God?
    Mr. Youel Page. I do.
    Captain Drapp. I do.
    Senator McCaskill. We will use the timing system today. We 
would ask you if you could hold your oral testimony to around 5 
minutes. We are not picky about that, but about 5 minutes. And 
then obviously, we will take all of your written testimony for 
the record. Captain Drapp.

 TESTIMONY OF CAPTAIN BRIAN T. DRAPP,\1\ SUPPLY CORPS, UNITED 
  STATES NAVY, COMMANDING OFFICER, NAVAL SEA LOGISTICS CENTER

    Captain Drapp. Thank you. Senator McCaskill, Ranking Member 
Johnson, and distinguished Members of the Committee, good 
morning, and thank you for holding this hearing and affording 
me the opportunity to testify about the contractor past 
performance database systems that my command operates. I am 
honored to be here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Drapp appears in the Appendix on 
page 23.
---------------------------------------------------------------------------
    I am Captain Brian T. Drapp, Supply Corps, United States 
Navy, Commanding Officer of the Naval Sea Logistics Center, in 
Mechanicsburg, Pennsylvania. My command is a shore-based 
activity that administratively reports to Naval Undersea 
Warfare Center, Division Keyport, a field activity of Naval 
Undersea Warfare Center headquarters that reports to Naval Sea 
Systems Command.
    I understand the Navy's Legislative Affairs Office has 
provided a copy of my written statement to the Committee and 
respectfully request that it be entered into the record.
    Senator McCaskill. It will. Thank you.
    Captain Drapp. Yes, ma'am. One element of my command's 
mission is to serve as the Naval Sea Systems Command technical 
agent for maintaining life cycle logistics data systems. This 
includes the oversight, management of database operations, 
sustainment, configuration, customer support, and training for 
three systems, as the chairman previously talked about, first, 
Contractor Performance Assessment Reporting System, Past 
Performance Information Retrieval System, and finally, third, 
the Federal Awarding Performance and Integrity Information 
System.
    Although Naval Sea Logistics Center is a Navy command, our 
functions in operating and maintaining contractor past 
performance databases are at the direction of our two program 
resources sponsors, the Office of the Undersecretary of Defense 
for Acquisition, Technology and Logistics, and the General 
Services Administration, Integrated Award Environment.
    In our role as operator and maintainer of these systems, my 
prepared witness statement for the record addresses one, how 
the Federal Government collects, manages, and uses information 
about contractor performance and integrity; two, how the 
performance systems and FAPIIS have been implemented and used; 
and finally, third, how the past performance systems work 
together along with upcoming improvements that will be 
implemented.
    A key responsibility of the Naval Sea Logistics Center's 
team sustaining these systems is to properly maintain the 
hardware and software and to upgrade them based on requirements 
provided by the Integrated Award Environment and the 
Configuration Change Board chaired by the General Services 
Administration represented by over 25 Federal agencies. 
Additionally, Naval Sea Logistics Center provides training on 
the use of these performance and integrity information systems 
to military and Federal acquisition officials, their support 
staffs, and Federal contractors.
    We also provide helpdesk support to customers daily via 
phone calls and e-mails, the majority of which are answered the 
same day. In terms of database systems reliability, CPARS, 
PPIRS and FAPIIS, are accessible to customers 99 percent of the 
time, with announced outages related to routine and required 
maintenance accounting for the remaining 1 percent.
    Please be assured the Naval Sea Logistics Center is 
committed to the readiness of our systems, the needs of our 
thousands of customers, and moreover, to provide a means to 
strengthen communications and processes between contractors and 
acquisition officials and to enhance the government oversight 
and the contracting source selection process.
    Senator McCaskill, Ranking Member Johnson, and 
distinguished Members of the Committee, I appreciate the 
opportunity to discuss the contractor performance and integrity 
systems the Naval Sea Logistics Center operates and maintains. 
I will be happy to answer any questions you may have. Again, 
thank you for this opportunity to testify.

   TESTIMONY OF KEVIN YOUEL PAGE,\1\ ASSISTANT COMMISSIONER, 
 INTEGRATED AWARD ENVIRONMENT, UNITED STATES GENERAL SERVICES 
                         ADMINISTRATION

    Mr. Youel Page. Good morning, Chairman McCaskill, Ranking 
Member Johnson, and the distinguished Members of the Committee. 
My name is Kevin Youel Page. I have been the Assistant 
Commissioner for the General Services Integrated Award 
Environment since July 2013. I am responsible for, among other 
things, the Federal Government's shared past performance 
systems, and I appreciate the opportunity to appear here today 
to discuss GSA's role in managing Federal contractor past 
performance systems and information.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Youel Page appears in the 
Appendix on page 29.
---------------------------------------------------------------------------
    Contractor past performance systems are part of a broader 
Integrated Award Environment which was created under the E-
government Act of 2002 to streamline and unify the Federal 
award process for government and nongovernmental participants 
in the loans, grants, and contracting communities. IAE's main 
goal is to evolve the existing shared portfolio of 10 systems 
into a user-centric open source secure common services platform 
that will improve operations for those who award and administer 
grants, loans, and contracts.
    We undertake this work in concert with the Office of 
Federal Procurement Policy (OFPP) and the interagency 
governance bodies, the Award Committee for E-government. This 
governmentwide collaboration enables us to save money, be more 
efficient, reduce the burden on the communities we serve, and 
provide more transparent Federal award information to 
continuously monitor and improve Federal award management.
    GSA serves as the executive agent for the management of all 
10 governmentwide award systems, three of which are contractor 
past performance information systems operated by the United 
States Navy. The three systems, as mentioned, are PPIRS, CPARS, 
and FAPIIS.
    Because PPIRS and CPARS were initially developed and 
operated by the Navy, GSA, with its Federal governance, chose 
to leverage the Navy's expertise in asking the Navy to continue 
to operate all past performance systems governmentwide. Prior 
to 2002, agencies maintained their own systems to track past 
performance. This was duplicative, inefficient, and gave agency 
contracting officers no ability to ensure they had a 
comprehensive or a consistent view of a contractor's past 
performance.
    In 2002, PPIRS was established as the enterprise 
application to allow source selection officials to retrieve 
contractor performance. Once a single retrieval point was 
established, our efforts turned to consolidating systems to 
input past performance information. Before 2010, agencies used 
nine separate input systems, each with its own contractor 
rating criteria, making the comparison of past performance 
information and data challenging.
    In 2010, CPARS was made the governmentwide system for 
inputting the contractor past performance information into 
PPIRS, so consolidating to a single input and a single 
retrieval system has represented a major improvement over that 
period of time. During this improvement, the Duncan-Hunter 
National Defense Authorization Act of 2002 mandated the 
creation of a new system, FAPIIS, to display information 
regarding the integrity and performance of certain entities 
awarded Federal contracts and grants. In order to reduce the 
cost of this new system, and to reduce the burden on our 
government users, FAPIIS was integrated into our existing 
systems.
    FAPIIS was deployed in March 2010. It displays criminal 
convictions, certain civil judgments and administrative 
findings of fault, certain compromises or agreements that 
settle civil, criminal or administrative proceedings, 
ineligibility due to suspension or debarment, administrative 
agreements issued in lieu of suspension or debarment, non-
responsibility determinations, contracts and grants terminated 
for default, defective pricing determinations, and past 
performance evaluations.
    The publicly accessible component of FAPIIS was deployed in 
April 2011, and it includes all of the above information except 
past performance evaluations, which are source selection 
sensitive information. Going forward, GSA and the Navy are 
committed and are working with the award community to make 
further enhancements to the collection and display of 
contractor performance information. These enhancements will 
further reduce the number of systems, improve user experience, 
add search features, and create the capability for users to run 
more reports that meet their user needs.
    Chairman McCaskill, Ranking Member Johnson, and the members 
of the Committee, thank you for the opportunity to discuss 
IAE's contractor performance systems. I am happy to answer any 
questions you may have for me at this time.
    Senator McCaskill. Well, first, let me say, the reason we 
are having this hearing today is because I think that this is 
an area that continues to need a lot of oversight. But I do not 
want you to think I do not recognize that there has been some 
progress. But we still have a system where we have three 
databases with contractor performance information: PPIRS, 
FAPIIS and SAM.
    I understand that FAPIIS pulls suspension and debarment 
from SAM but not all the details, so contracting officers still 
have to use all three databases. Isn't that correct?
    Mr. Youel Page. Yes, Senator. If they wanted the full 
information on the background of a suspension and debarment, 
that information is in SAM. But it is true that it is displayed 
in FAPIIS to enable that further research, if needed.
    Senator McCaskill. And so now we are integrating it, so 
this will be in fact a one-stop shop.
    Mr. Youel Page. Yes, ma'am.
    Senator McCaskill. And when do you think this integration 
will be complete?
    Mr. Youel Page. We are working on a series of incremental 
developments to do small and agile development across the 10 
platforms. We have scheduled the entire environment to be put 
into a more user-centric format by the fiscal year (FY) 2018, 
but with phased improvements between now and then in some 
increments, beginning with some of the work in FedBizOps (FBO) 
and making our Federal opportunities available to small 
companies.
    Senator McCaskill. Is there anything you need to make that 
go faster that we could help you with? I was told at the 
hearing in 2009 that the process of integrating PPIRS would be 
done by 2013, at that hearing, and clearly that has not 
happened. So what I am worried about is that we are not really 
talking about 2018; that we are really talking about a long way 
away, when both of you will be probably in different 
assignments, I am willing to bet.
    Mr. Youel Page. Your question is, is there anything that 
you could provide or help to make this go faster. I think that 
we have been working very diligently with the administrator to 
make sure that the resources are available to keep to this 
plan. We have, of course, suffered our own missteps along the 
way of creating this Integrated Award Environment and we are 
working diligently to learn those lessons and move forward 
using the new 21st Century architectural principles and the 
right kind of development approaches to minimize risk and to 
continue developing these systems the way we all want them to 
be developed and expect them to be developed.
    Senator McCaskill. In 2009, Vivek Kundra, the Federal chief 
information officer and the administrator for Electronic 
Government and Information Technology at OMB, said the 
following, ``Part one of this contract, what GSA is asking, is 
to make sure that there is requirements gathering, there is a 
broad array of people that are consulted ahead of time, that 
there is actually profiles created on the different types of 
users.''
    It sounds like we are still stuck there 4 years later. Is 
that accurate?
    Mr. Youel Page. I think we are looking at the profiles of 
individual users and we are attempting to use that user-centric 
design technique to put ourselves very much in the shoes of an 
end user, whether it is a Senate staffer, a contractor, or a 
small grantee operating out of a university, to understand how 
they are going to experience the system and make the best use 
of their role in the system.
    So we have developed profiles and are continuing that 
process and are beginning, now that we have finished the work, 
stabilizing the system for award management to use these 
profiles to tackle different aspects of functionality across 
the Integrated Award Environment.
    Senator McCaskill. I want to talk a little bit why FAPIIS 
has so little information. My staff reviewed FAPIIS and found 
around 1,500 government-entered records and about 650 vendor-
entered records. Considering that we have thousands of Federal 
contractors and the amount of data going into PPIRS since 2011, 
this is nothing.
    Now, it is my understanding this problem is caused by the 
fact that all the past performance evaluations in PPIRS are 
labeled source selection sensitive, and therefore, not 
transferred to FAPIIS. Is that right?
    Mr. Youel Page. To the public version of FAPIIS, the 
individual contracting performance assessment reports are not 
available to the public because they are source selection 
sensitive. But the other eight categories of administrative 
agreement and adverse action are available to the public 
through FAPIIS.
    Senator McCaskill. So are past performance evaluations 
available to the public or are they source selection sensitive?
    Mr. Youel Page. The evaluations that are completed in CPARS 
by contracting officers are not available to the public. They 
are deemed to be source selection sensitive information.
    Senator McCaskill. And who deemed that?
    Mr. Youel Page. That is how I understand the law to be 
written and how I understand the regulation to have been 
implemented.
    Senator McCaskill. OK. So you think that is statutory 
language that is dictating that?
    Mr. Youel Page. I believe so, yes, ma'am.
    Senator McCaskill. OK. Let's look at this source selection 
sensitive limitation and what seems to be an arbitrary length 
for protection, which is 3 years. Let's look at it on a case-
by-case basis. Is it decided on a case-by-case basis?
    Mr. Youel Page. I am sorry. Is what decided?
    Senator McCaskill. OK. All the evaluations in PPIRS, the 
performance evaluations, if it is source selection sensitive, 
OK, is that true for all the evaluations in PPIRS, that they 
are deemed source selection sensitive?
    Mr. Youel Page. All of the CPARS records are deemed source 
selection sensitive. All of the records entered by contracting 
officers related to performance on government contracts that 
they manage and oversee are considered source selection 
sensitive. The information on administrative agreements and 
other determinations for default, that information is public 
and is not deemed source selection sensitive.
    Senator McCaskill. I am looking at my notes here and it 
says that the rule for the time period that you protect this 
information as source sensitive says at least 3 years. So what 
is being done in terms of how long it is protected? Is it 
protected for 3 years, or is it decided on a case-by-case 
basis?
    Mr. Youel Page. I am sorry. I believe that this is a 
question of how long a past performance record is relevant. I 
think that the policy is that 3 years is considered the period 
of relevance. These records are maintained for 5 years in the 
system, are archived afterwards. They are considered Federal 
records.
    Senator McCaskill. OK. So they are archived, but I am 
asking how long the source selection sensitive limitation stays 
in place. Three years?
    Mr. Youel Page. I am not certain of the answer to that. I 
believe it is indefinite, but I would have to get back to you 
with a concrete answer.
    Senator McCaskill. It is hard for me to imagine that the 
vast majority of the past performance evaluations are even the 
slightest bit sensitive. It seems to me that it is not in the 
interest of transparency to put evaluations behind a veil 
because we are not maybe sorting out the very few that might 
have some sensitive information.
    I know it is simpler, but I think it is something we need 
to take a look at--and we will take a look at it because I know 
it is rule-based--and figure out how we could put more 
transparency into this source selection sensitive limitation.
    OK. I would like now to actually take a look, all of us 
together, how the databases actually work. The first issue 
actually arises before you even get to either PPIRS or FAPIIS. 
When you navigate to either PPIRS or FAPIIS, you get an ominous 
security certificate warning. Now, I think most contracting 
officers know to click continue despite the warning, but I am 
curious why there would be a security certificate warning for 
two official government databases.
    Anybody know?
    Captain Drapp. I do not have an answer for that. We will 
have to take that for action, ma'am.
    Senator McCaskill. OK. I think it is troubling. There are 
lots of places that I think security warnings are appropriate, 
but I think we need to track down why we are getting a security 
warning for these particular databases that are run by the U.S. 
Government. So let's take a look at that.
    I would also love to talk about why OFPP just issued a rule 
that said for the few things FAPIIS is allowed to display, 
namely just adverse actions, that it would only be allowed to 
include information from when it went live in April 2011. I 
wish we could have a discussion about whether or not we should 
change that rule to include information before April 2011.
    OFPP declined to send anyone to this hearing, so I don't 
have an opportunity to ask them, but I will followup with OMB 
to figure out why they are doing that. I do have questions 
about suspensions and debarments. We are going to search for a 
company that we know has an exclusion in SAM, and that is a B&J 
corporation.
    With this DUNS Number, we see that FAPIIS shows suspension 
debarment information for this company pulled from SAM. When we 
click on the link within FAPIIS to see suspensions and 
debarments from SAM, we see the two debarments pulled from SAM 
but no information on exclusion type or description of the 
exclusion, only the date of the exclusion.
    So in order to see more, a contracting officer would then 
have to go into SAM and search again by the DUNS Number. In 
SAM, you see the two debarments, and if you click into them, 
you see a lot more detail in SAM than in the FAPIIS entry that 
supposedly pulled that information from SAM.
    Why does FAPIIS not include all the suspension and 
debarment details from SAM? Why is there a requirement that you 
only get cursory information and then you have to go into SAM 
specifically to get more detail?
    Captain Drapp. I do not have an answer for you. We will 
have to get back to you on that, ma'am.
    Mr. Youel Page. I guess I will try to answer this way. We 
certainly could bring more information in from SAM. As a 
practical matter, a source selection official who identifies a 
company as being suspended or debarred may be curious as to 
deeper reasons why that is the case. But most will, at least in 
my experience, act fairly immediately to cease considering that 
company for further consideration for award without--they may 
search the system to confirm that this is accurate, contact 
their own policy and suspension and debarment officials to 
ensure that they are making a proper decision, but they will 
not in general need much more than to know that this is a 
suspended or debarred firm.
    Senator McCaskill. Well, what would be helpful for us to 
know, the Committee to understand, is that if this decision is 
being made, for the reasons that you indicate, Mr. Youel Page, 
and that is efficiency, then all somebody needs to know, that 
there is a suspension or a debarment, then that would be good 
news. But it appears that it is just clunky interface.
    Mr. Youel Page. It is something if we were--I have not 
heard the feedback that this is something that is of great 
concern to the contracting officers, but it is certainly 
something if we were hearing it through our change control 
board, through our interagency governance that it was something 
they wanted more in the system. It would be something that we 
would put on our list for incremental improvement over time.
    Senator McCaskill. OK. Now I want to illustrate a basic 
difficulty with searching for a contractor's information. 
Because there are so many Federal contractors, many of which 
have similar names, my understanding is that the Data Universal 
Numbering System--or DUNS Numbers--are the way that we 
accurately search for the entity one is looking for.
    The problem with that is contractors have different DUNS 
Numbers for different parts of their organizations and the DUNS 
system does not illustrate in any way the relationship between 
a parent company and a subsidiary; therefore, the result is 
that FAPIIS does not track contractors as a whole organization, 
and contracting officials miss important information about the 
big picture.
    If a contracting officer were to do a name search in an 
effort not to miss the big picture, it can render the system 
nearly impossible to navigate. I want to illustrate how 
problematic this is with a common example--Lockheed Martin. If 
we search for Lockheed Martin by name in an effort to get a big 
picture sense of the company's past performance, instead of a 
particular subsidiary, we get a list of over 80 entries.
    We prepared a marked-up handbook that illustrates for you 
what the screen is showing when we search for Lockheed 
Martin.\1\ As you can see, it is riddled with confusing names, 
some of which with bad typos. Each group of the same color 
arrows illustrates a variation on the same name, and some of 
them can be quite silly.
---------------------------------------------------------------------------
    \1\ The Assessement Report appears in the Appendix on page 50.
---------------------------------------------------------------------------
    For instance, we have Lockheed Martin Corporation, which 
apparently is different from Lockheed Martin Corp, without a 
period; Lockheed Martin Corp., with a period; Lockheed Martin 
Corporation; Lockheed Mar. I think you get the idea. We also 
have Lockheed Martin Integrated Systems, without a comma; 
Lockheed Martin Integrated Systems, with a comma; and another 
identically named Lockheed Martin Integrated Systems, but the 
two have different DUNS Numbers so they are listed separately. 
And one has 346 evaluations under it and the other one with the 
exact same name, right down to the comma at the end, only has 
one evaluation under it.
    I realize these might not be all the Lockheed Martin, or 
even related to it, but most of them are. The point is if you 
have a DUNS Number for one small part of Lockheed, you are 
missing all the other subsidiaries and parent corporations 
which could shed light on the corporation's behavior. But if 
you do not have a DUNS Number and try to search by name, this 
is what you have to deal with.
    I am not sure how the contracting officer is supposed to 
handle this. Can you give me some reaction to this? How can we 
fix this? And I am a little worried that we are captured by the 
DUNS Numbers since we do not even own them. We are paying a 
bunch of money for them. Has there been any thought or any 
effort to making this a little bit more accurate as to 
subsidiaries in like names and DUNS Numbers?
    Mr. Youel Page. Senator, yes, indeed. And you are very much 
focused in this question on something that we are well aware of 
and share your concern. Some of the nuance behind the reason we 
are here has to do with PPIRS being a collection point for 
historically a number of different entry points, and so there 
are data standards, mismatches between those legacy systems and 
what is in PPIRS.
    It is a known problem that we are seriously trying to 
grapple with as we consolidate the systems and do a better job 
as a Federal Government managing data standards more broadly 
across the acquisition world.
    We do have efforts in place. There is a Federal Acquisition 
Regulation (FAR) case that is moving forward to establish the 
CAGE Code, the Department of Defense (DOD) CAGE Code, as a 
mechanism for doing a better job of capturing the parent/child 
relationship among entities in the system, and so that is one 
effort underway to do a better job to address the entity 
management problem. And we have been looking and continuing to 
scan the environment for other ways beyond Dun & Bradstreet and 
DUNS Numbers to manage entity management, things like, for 
example, the Legal Entity Identifier (LEI) being pursued by the 
G-8 and the G-20, and some of our--I believe the Federal 
Reserve is managing that on behalf of U.S. Government.
    So this is a byproduct of years of going it separately that 
we need to do the hard work on data standards and management 
and migration to improve, and is in fact on our path.
    Senator McCaskill. Well that is good, because I think some 
of this is--I know there is a hesitation to give up all the 
legacy information. But at some point in time, you have to pull 
the band-aid off and begin a system that makes more sense. 
Because you could not expect a contracting officer to navigate 
something like this and get accurate information; it is just 
impossible.
    Let me also talk about the evaluations. When there are 
hundreds of evaluations, I think it is almost impossible to 
draw conclusions from them. It makes it very difficult, I 
think, for a contracting officer, especially if you cannot view 
all the information that is contained in them.
    Have there been discussions about aggregating the ratings 
and the evaluations?
    Mr. Youel Page. Yes, ma'am. We have been in discussions 
with OMB and with the interagency community on what it would 
take to do that, and a step precedent to being able to 
aggregate is to get to common standards for definitions of past 
performance so that we are in common definitions as to what a 
rating means.
    And we are very far along in managing that problem, and so 
I think we are closer to being able to do better analytics on 
the large numbers of past performance reports in the system, 
and to do different kinds of analytics. Because this is a 
nuanced problem. On the one hand, we do want to see every 
relevant piece of past performance for parent/child/sibling 
part of the entity. On the other hand, the CO may judge that 
some of that past performance is more relevant and wish to 
narrow down their search on relevant parts rather than parts 
that may not be as relevant.
    A large company like the one you have brought forward here 
by necessity has operating units that operate quite 
independently and certainly with different staff, different 
past performance histories, and we would not necessarily want 
to lose the opportunity to do business with the greatest vendor 
on earth in one area because they happen not to be as 
responsive in another area.
    So it is a nuance and complicated decisionmaking process 
for the CO, and the system, we agree, needs to do a better job 
enabling the kind of analytics that would enable that 
sophisticated decision----
    Senator McCaskill. It seems a numerical analytic would make 
more sense in terms of being able to aggregate accurate 
information, the satisfactory and--I think that makes it much 
harder. We will continue to followup on that, but I am glad 
that you are addressing that, because I think it really is a 
problem.
    It appears that the CGI Group--which this is a really big-
time public failure, the contract with CGI for Healthcare.gov. 
I do not know that we have had a bigger one that got more 
attention, that more people understood that it was a complete 
failure. It appears that CGI Group purchased a company called 
American Management Systems (AMS) that had a number of pretty 
high contracting failures, some on the State level that 
resulted in millions in penalties and widely reported failure 
on the Federal level for the Thrift Savings Plan (TSP), the 
retirement savings plan for Federal employees.
    CGI Group then renamed AMS to CGI Federal. And as we all 
know, the newly renamed CGI Federal, which was still made up of 
the AMS management and employees, won the contract for 
Healthcare.gov together. It seems that the CMS contracting 
officers in this case may not have realized that CGI Federal, 
which has a clean past performance record under its new name, 
was essentially the same company of the not so clean former 
AMS, which illustrates a major problem in our contracting 
process.
    Are there any safeguards in place? Can you recommend 
safeguards that should be put in place for a situation like 
this where we have an acquisition and a name change? Sometimes 
it is just as simple as a name change. And negative performance 
information that would have been vital in this situation was 
never even obtained or known about.
    Mr. Youel Page. We do. Through the System for Award 
Management, I have information from Dun & Bradstreet that helps 
us understand the nature of relationships between novated 
companies, parent and child companies, and so I believe there 
are ways that we could use that information that we currently 
have rights to do a better job in managing that kind of 
business problem.
    But I say that with some trepidation. The whole issue of 
corporate control and governances is very complicated. It was 
not in this case, but it can be very complicated and difficult 
to manage for all companies trying to grapple with the question 
of what is an entity, when is an entity substantially the same 
as an entity last year. These become, again, difficult.
    Senator McCaskill. Shouldn't there be some kind of trigger 
when you have a company that is new? I would think if we were 
CGI Federal is a relatively--I mean, this was clearly not 
something that had been around for decades. This is something 
that had happened.
    The AMS failure with the Federal Thrift Savings Plan is 
still all over the web, if you search it, and it resulted in a 
Senate hearing. But the past performance database-PPIRS--does 
not contain a single record of it. Now, I assume that is 
because it happened back in the late 1990s and early part of 
this decade. Is that----
    Mr. Youel Page. I am not sure I could answer that question. 
I am sorry, Senator. I do not know the specifics of this case 
or the record that we are talking about.
    Senator McCaskill. Well, it is a great example of where the 
databases are not serving the contracting officers as 
effectively as they need to. I guarantee you; everybody at CMS 
who made that contracting decision would have loved to have 
known this before they did. It might have avoided a huge black 
eye for this administration and for the healthcare reform 
program.
    Another issue is assessing the self-reported information 
from contractors. FAPIIS pulls self-reported information from 
SAM. For example, Honeywell self-reported that it answered yes 
to both questions about contracts and at-fault proceedings 
below, but the only answer is yes. And there is no information 
about these proceedings. The yes answer to such a question is 
pretty useless on its own. We need to be able to access the 
details of these proceedings.
    Have you considered changes to require additional audits or 
oversight of contractors reporting into the database?
    Mr. Youel Page. I am sorry. I am watching the website 
trying to understand why the administrative agreement is not 
contained in the record. It ought to be. Is the suggestion that 
there is no detailed information in this record?
    Senator McCaskill. Correct. There is no information about 
the proceedings; they just answered yes. And I guess the issue 
here, Mr. Youel Page, is that we are relying on the contractors 
to self-report, but I do not think we are ever going back and 
checking----
    Mr. Youel Page. That they are reporting.
    Senator McCaskill. That they are reporting accurately, 
completely, or if they are reporting at all.
    Mr. Youel Page. My understanding is that to the extent that 
they are reporting, the self-reporting is happening through 
their certifications and representations in SAM. My 
understanding is that when those two questions are answered in 
the affirmative, yes, I have a contract of this value, and yes, 
I have a proceeding, that the system will require an upload of 
a copy of some information related to that proceeding, and that 
is contained and available.
    So I will look into this case where that apparently is not 
the case. But my understanding has been that this is----
    Senator McCaskill. If you would followup, because my 
understanding is that based on the research that my staff has 
done, that this is not always occurring. And the question is 
what mechanism is there to check when it is not occurring?
    Mr. Youel Page. No, it is a very fair question and I will 
look into that. I believe there is a check and we will make 
sure the check is working the way it is supposed to.
    Senator McCaskill. OK. My staff has also found several 
technical issues with FAPIIS, including issues as simple as the 
back button not working. In FAPIIS, both the public website and 
the module within PPIRS, the back link to go back to search 
results only works in Internet Explorer but not in any other 
browser.
    Is there any work being done to ensure that people have the 
ability, regardless of what browser you are using, to utilize 
the back link, something pretty basic in 2014?
    Captain Drapp. I will look into that. I am not aware of 
that, ma'am.
    Senator McCaskill. OK. If we do a search for past 
performance in PPIRS and then want to see the adverse actions 
in FAPIIS for the same company DUNS Number, you have to switch 
applications. It is now not possible to be signed into both 
PPIRS and FAPIIS module at the same time. Now, while it is not 
difficult to switch from PPIRS to FAPIIS and vice versa, what 
happens when you switch is that you lose whatever search you 
were doing in the database you switched from.
    You follow me?
    Captain Drapp. Yes, ma'am.
    Senator McCaskill. So in addition to whatever technical 
glitches, is these little things that make a contractor 
officer's job more difficult and can easily lead to overlooking 
information. I do not think it is unreasonable to expect these 
databases to not have these technical blocks that make it much 
more difficult to do this basic research.
    And if you could, Captain Drapp, if you could followup 
about those technical issues that we discovered in trying to 
utilize these databases in an effective way.
    Captain Drapp. Yes, ma'am.
    Senator McCaskill. Right now contractors are self-reporting 
whether they have been subject to any criminal, civil or 
administrative procedure in connection with a Federal award 
that has resulted in a finding of fault. Shouldn't the 
contractors report their involvement in any litigation, or 
should we just limit it to those where they had resulted in a 
finding of fault?
    My concern is that a contractor could settle a lawsuit 
without admitting fault. And by the way, that is more common 
than anything else, that there is a settlement of a lawsuit and 
the reason that the company settles is because they are worried 
that they are going to be found at fault.
    There is no motivation to settle unless you got liability. 
So a settlement always means that there is some liability on 
the part of the company. In some instances, it may be they want 
to settle to avoid legal costs. I get that. But typically, 
those are de minimis cases because, you do not want to settle 
for legal costs--if it is a de minimis settlement then it would 
be just for legal costs.
    But if I were a contractor, I would seek to make sure that 
happens so as not to impact any future business I did with the 
U.S. Government. That would be a motivation to settle, because 
if I settle and do not admit fault, I never have to report it. 
So is it not a good idea at least to ask the contractors to 
delineate litigation that they have been involved in and then 
if the contracting officer has other things that they are 
asking questions about, it gives them the ability to inquire?
    Mr. Youel Page. It is an excellent question. It is a very 
deeply policy-weighted question and I think there are probably 
great arguments on the pro and the con side of that question 
that I am not sure I am the right person or well-equipped to 
give to you right now, Senator McCaskill, but I do think it is 
a good question.
    Senator McCaskill. I understand that there could be some 
arguments that you want to--it is not fair to the companies, 
that they have to report all of this, because there could be a 
frivolous lawsuit and settled for a minimal amount, but they 
always have the ability to report that. It is not as if they 
cannot explain it, if that is in fact the case.
    So I would love to debate someone who--because I am sitting 
on the side that I want the government to have as much 
information as possible, because I do not want the government 
to be spending public money with a company that it should not 
be spending public money with. So if it is a close argument, 
then they should lose, because the government is the one that 
is giving them money to perform a service or to provide 
products, and we have the right as the customer to demand 
certain standards. And if they do not want to have those 
standards, then they are not required to do business with us. 
Nobody is putting a gun to the head of these contractors and 
saying you must do business with the Federal Government.
    So if it is a close argument, I think this one should go to 
the government for more information, and I would appreciate if 
you would followup and see what would be the objections to, and 
by the way, if you get the cite of the case in this day and 
age, all you would have to do is get the pleading and the court 
filing and in about 2 seconds you can look up the lawsuit. You 
can look up what the facts of the lawsuit were. You can look up 
the pleading. You can learn whether or not this on its face is 
something that would cause us concern or whether on its face it 
is something that we do not need to bother with.
    And maybe this is not the kind of deep research that would 
need to be done on every contract, but it certainly would be 
done on some, especially those that are of high security 
matters that we have contracts with all the time.
    What are the obstacles to requiring contractors to report 
labor or human rights violations? If there is a labor violation 
that they have had or a human rights violation they have had, 
is there any mechanism now that requires them to report that? 
And are there obstacles to that?
    Mr. Youel Page. It is my understanding right now that the 
regulation is set so that the self-reporting is self-reporting 
of these administrative matters in relation to a Federal 
contract. So I think at the moment the regulation is set in 
such a way that other violations or other civil actions not in 
conjunction with a Federal contract are not required to be 
reported.
    Senator McCaskill. So what we would probably have to do is 
have the FAR clarify that business integrity would include 
compliance with labor and other human rights laws such as those 
regarding trafficking?
    Mr. Youel Page. I believe that I would answer that, yes.
    Senator McCaskill. It is currently not defined, business 
integrity. Although it is mentioned many times in FAR, we 
cannot find a definition for it.
    OK. We have spent some time talking about how we can make 
the databases work better, but as they are working now, I have 
some concerns as to whether they are informing contractor 
officers the way they should be. For example, although CMS has 
decided not to renew CGI Federal's work on Healthcare.gov and 
has instead given it to Accenture, CMS has nevertheless given 
CGI Federal additional work on other projects.
    Is there a policy in place that there is some kind of 
warning that goes out across the system? I mean, what worries 
me is that someplace else in the Federal Government they would 
be contracting with this company after this massive failure to 
provide a basic website that worked on a very important date.
    I mean, what happens if a contractor overlooks relevant 
past performances, contracting officer? Is there something 
built in that there is some kind of disciplinary action or does 
anybody even notice? Is there some kind of oversight in that 
regard that you can speak to, either one of you?
    Mr. Youel Page. I can say for certain that contracting 
officers are required to look at FAPIIS and at PPIRS before 
they make an award. They are required to look and do an 
evaluation of past performance on any purchase over the micro 
purchase threshold. So each CO has to engage--each source 
selection official engages in that analysis under their own 
management structures and oversight and quality assurance.
    And it is our job to make sure that the system, as we have 
been talking about today, gives them raw material to work with 
to help them form their opinion about past performance as part 
of an overall source selection decision, as one component of 
the source selection decision, in order, exactly as you pointed 
out, to mitigate the risks to government of entering into 
business with a vendor that is not capable or less capable of 
doing the work and perhaps should be not considered for that 
work.
    Senator McCaskill. It just worries me that they overlook it 
and then there is nothing that happens. That is my biggest 
concern.
    I am almost to the end here. Another problem with assessing 
past performance is the information contained in them does not 
always reflect the contractor's performance. For example, the 
most recent past performance for CGI Federal's work on 
Healthcare.gov is an assessment dated June 12, 2013, because it 
was an annual for the previous year. They were ranked 
exceptional for their performance in every category.
    As we pulled up on the screen, and you can see, this was a 
period of time during which the Administration was 
acknowledging that there would be issues with the rollout. As 
early as March 2013, Henry Chao, deputy chief information 
officer at CMS, said at an insurance industry meeting that he 
was ``Pretty nervous,'' about the exchanges being ready October 
1, and adding, ``Let's just make sure it is not a Third World 
experience.''
    And on June 19, 2013, GAO said the health insurance 
exchanges might not open on time because they had missed 
deadlines and were behind schedule, including on testing the 
system. But on the PPIRS assessment dated a week before, CGI 
was not just ranked as OK on their contract but ranked 
exceptional in every category.
    Another example is BP. You might recall after Deepwater, 
the EPA suspended BP and its related subsidiaries from 
obtaining new contracts, a suspension that BP and the British 
Government are actively fighting. Despite the catastrophic 
disaster which caused billions of dollars in damage, there 
doesn't appear to be any record of poor past performance in 
PPIRS for any of the BP entities suspended. My staff did a 
search for every single DUNS Number that is listed as a 
suspended BP entity in SAM and in PPIRS. Only pulled up a 
handful of past performance evaluations that BP did overseas 
for the U.S. Government and all the evaluations were rated 
satisfactory or higher.
    It is weird to me that a contracting officer using a non-
public database would have less complete information about a 
contractor's performance than somebody who just googled them. 
What can we do to ensure that past performance reports actually 
include negative information? It is like there is this thing 
out there--and I found this with contracting oversight that I 
have been working on now for 7 years. There is such a 
reluctance of people evaluating these contractors putting 
negative information down. I mean, I can tell you horror 
stories--and you are probably aware of them--of the contracting 
and contingencies overseas where we not only were giving them 
excellent ratings when they were ripping us off and doing 
substandard work, we were giving them performance bonuses for 
doing great work at the same time they were electrocuting our 
soldiers in showers because they had wired them faulty.
    So what can we do about getting negative information that 
is accurate that is available to anybody if they just do a web 
search of the company included in PPIRS? What steps need to be 
taken?
    Mr. Youel Page. I think we have been in receipt of several 
memos from OMB asking the Federal agencies to take a very close 
look at how they're managing past performance records, whether 
they are doing factual and accurate assessments on an annual 
basis as they are required to do. They have been promoting 
fuller compliance with evaluating each of the contracts 
required to be evaluated so that the information could be in 
the system, and I think they have been working on aspects of 
the training of the acquisition community as to how to do a 
better job evaluating past performance and doing it in a more 
comprehensive and fact-based way.
    At the end of the day, this entire system is made up of 
people, processes, policies, and technology, and each of them 
need to be doing their part to make the entire system evolve 
and get to those better answers.
    Senator McCaskill. It is really a hard question to answer, 
and I know it is. I guess what I wonder about, are the 
contracting officers, or more importantly, the contract 
evaluators, are they given enough training about--I mean, first 
of all, if there is negative information that comes up, you 
should not wait a year. CGI Federal should have had entries on 
October 1st in PPIRS. Major screw up. That is probably all you 
need to put in there.
    But it is almost like if a contracting evaluation gives 
negative information, they know they are going to get blowback 
from the contractor, right? And it is just easier not to. I 
mean, that is part of my sense of this is that, you do not want 
to fight the battle that if you put negative information down 
that there is--we are going to sue you or that is not true or 
you are not being fair.
    I think it is true throughout the Federal Government 
frankly. We let things slide because it is just too hard to 
fight it. And I think in this area, past performance, that is 
what is going on. I mean the notion that there is not negative 
information about CGI Federal or the subsidiaries of BP in 
PPIRS is embarrassing, that we're responsible for that. And I 
would love someone--and I do not know who was in charge of 
doing this, but someone needs to find out why that stuff has 
not been entered. Is it because it is not on an annual basis 
and that is the only time you do it?
    Anybody?
    Mr. Youel Page. They are required to do it on an annual 
basis or at the end of the contract performance.
    Senator McCaskill. Are they allowed to do it midstream?
    Mr. Youel Page. Yes.
    Senator McCaskill. They can do it at any time?
    Mr. Youel Page. That is right.
    Senator McCaskill. OK. Well, somebody needs to ask some 
tough questions about why this is not occurring, because it is 
clearly not, and I think there are a lot of contractors that 
are skating by on substandard performances that are not getting 
noted because it is just easier to say satisfactory than it is 
to give them negative information knowing that that is now 
going to be a contentious situation.
    It is the same thing with evaluating employees, the saying 
in the Federal Government that it is hard to get a job there, 
but once you do, do not worry, which is not fair to most 
Federal employees because they are terrific and they work hard 
and they are dedicated and they make less money than they would 
in the private sector.
    But there are from time to time problem employees, and it 
is very difficult sometimes to remove them because it has not 
been documented. And this is a kissing cousin of the same 
problem, that it is just easier to let it slide.
    So if you have some sense that you need to improve 
reporting into CPARS and PPIRS, which I know you do, are you 
implementing programs to improve the quality and frequency of 
reporting? Are there actually programs that are in place that 
are doing that? And I know PPIRS is not 100 percent yet. Where 
are you at reporting and how do you feel about the quality and 
frequency in terms of improvement? Do you really feel like you 
have turned a corner or do you still see that there are other 
programs that we can implement that would make it even better?
    Mr. Youel Page. For our part on the system side, we have 
been working with the community to give them management reports 
that would help them identify areas where they need to improve 
their compliance with the past performance requirements. I 
think that OMB has been focused on this issue in a couple of 
memos that they have issued. And I know just in past roles 
where I have been responsible for ensuring compliance with the 
FAR that it is an issue taken seriously and it is on report 
cards and performance evaluations, at least in places I have 
worked.
    I can't say that is happening throughout the Federal 
Government, but I suspect it is. And so I think that there are 
known improvements that are underway in terms of getting the 
quality and the time limits of reports up, and no doubt miles 
to go.
    Senator McCaskill. Has there been any discussion about 
trying to include contracting at the State or local level, or 
is that just a bridge too far at this point with all the 
challenges that you face?
    Mr. Youel Page. I am not sure I have been party to that 
discussion, but I would not necessarily be in the policy 
discussions where that would come up routinely.
    Senator McCaskill. Well, I think it is important with AMS, 
the predecessor to CGI. There was a littered history of 
disastrous contract work they did for States besides the Thrift 
Savings Plan debacle, that fairly easy to find if you just 
googled that company. And I know that we have not gotten our 
act completely together just getting the information from 
Federal contracts yet, but I do think in some of the cross-
agency groups you have that talk about this, I think it needs 
to get on the agenda for discussion, especially with everything 
being so technically available now by computers.
    Most of these State databases are available to the public, 
and, I mean, we are getting to the point that integration is 
not rustling the main frame any more. It is much simpler and 
much easier with the technology that we have now today compared 
to even just a few years ago. So I do think it would be elegant 
and seamless and important if we could have a complete picture 
of a contractor in terms of their government contracting and 
one that was not just limited to the Federal Government.
    Well, I hope you can leave this hearing knowing that there 
is one person in Congress that actually cares about this stuff. 
It is complicated and hard, but it is really important. And I 
want you both to know that you probably--you try to explain to 
people what you do, I am sure their eyes glaze over before you 
can get to the second sentence.
    At least you know that my eyes are not glazing over and 
that there are folks that are looking very carefully at what 
you are doing and how you are doing, because we believe it is 
very important. We will continue to followup in these areas, 
and I just wanted to have this hearing. And my staff has done a 
terrific job of doing some of the research to see how this is 
actually working now.
    I hope to have a hearing in a few years to congratulate you 
on a more integrated system with more information that is 
immediately transparent to anyone who wants to see it, that is 
accurate and complete, and makes the job of contracting the 
Federal Government's money much more effective and efficient. 
And if you would provide the answers to the questions that you 
took for the record to the Committee, and we may have a few 
others as followup questions for the record before we close the 
record on his hearing.
    And I bet you guys will not be back when I have the next 
hearing, but please tell the people that take your jobs when 
you leave that they can expect another hearing like this in the 
coming years. And we probably will not wait four or five this 
time. We will probably do another one in a couple years to see 
if we are continuing to make progress.
    Thank you both very much for being here.
    Captain Drapp. Thank you.
    [Whereupon, at 10:44 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
